No. 19-132
IN THE

uprente Court of
the liniteb '1)tate5
LAWRENCE I. FEJOKWU,
Petitioner,
v.
COMMODITY FUTURES TRADING COMMISSION,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
SUPPLEMENTARY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

LAWRENCE IKEMEFUNE C. FEJQKWU
Pro se
6905 Bellevue Avenue
2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
Law-Fej@ChazonQTA.com

11

TABLE OF CONTENTS
Page
Table of Authorities
Introduction
I.

iii
1

Ongoing usurpation of undelegated powers,
exploitation of lacunas, and acting with a sense
of supreme powers by the CFTC and the NFA
create a regulatory abyss for millions of
regulatees and encourages even more
usurpation and supreme behavior, if unchecked
by this Court.
2
A.

CFTC violates a Court's Consent Order
within minutes of the Consent Order's
issuance.

B.

2

NFA and CFTC in tandem exploit a legal
lacuna to the severe detriment of Effex
Capital, a party not subject to regulation
by NFA.

3

II

Excessive judicial deference and acquiescence
by courts encourage and facilitate the ongoing
supreme behavior of the CFTC and NFA.
5

III

This case is an ideal vehicle as it is a rare case
to reach the Court in an area where percolation
simply cannot occur due to excessive judicial
deference and acquiescence.
8

Conclusion and Prayer

13

111

TABLE OF AUTHORITIES
Page(s)
Cases
Chicago Commodities Inc. v. Commodities Futures
Trading Comm'n,
6
483 U.S. 1041 (1987), 108 S. Ct. 362
Commodity Futures Trading Comm'n v. Schor,
473 U.S. 922, 105 S. Ct. 3551 (1985)

5

Commodity Futures Trading Comm'n v. Schor,
474 U.S. 1018, 106 S. Ct. 566 (1985)

6

Commodity Futures Trading Comm'n v. Weintraub,
5
469 U.S. 929, 105 S. Ct. 321, (1984)
Dunn v. Commodity Futures Trading Comm'n,
528 U.S. 825, 120 S. Ct. 73, (1999)

6

Dunn v. Commodity Futures Trading Comm'n,
517 U.S. 1219, 116 S. Ct. 1846, (1996)

6

Effex Capital, LLC v. National Futures Association,
933 F.3d 882 (2019)
3
McLaughlin v. Richland Shoe Co.,
486 U.S. 128 (1988)

8, 11

Safeco Ins. Co. of Am. v. Burr,
551 U.S. 47 (2007)

8, 11, 12

Taggart v. Lorenzen,
139 S. Ct. 1795 (2019)

8, 11, 12

iv
US Commodity Futures Trading Commission v.
Kraft Foods Group, Inc. et al;
Case Number: 1:15-CV-02881; U.S. District Court,
Northern District of Illinois (Chicago)
2
Statutes
7 U.S.C. § 21(h)(2)

3, 4

Other Authorities
Juvenal in Satires (Satire VI, lines 347-348)

5

Kalvis Golde, Ginsburg addresses first-year class at
Georgetown Law,
SCOTUSblog (Sep. 13, 2019, 9:31 AM),
https://www.scotusblog.com/2019/09/ginsburgaddresses-first-year-class-at-georgetown-law/
11
Rules
Rules of the Supreme Court of the United States
adopted April 14, 1980; effective June 30, 1980;
and including revisions of November 21, 1980

6

Rules of the Supreme Court of the United States
adopted April 18, 2019; effective July 1, 2019

6

Regulations
17 C.F.R. § 171.14

4

INTRODUCTION
Events of recent weeks, occurring after
Fejpkwp's filing of his petition for a writ of certiorari
further confirm Fejpkwp's argument in his petition —
the CFTC and the NFA remained engaged in an
ongoing usurpation of powers. They continue to
fearlessly act with a sense of supremacy emboldened
by excessive judicial deference and acquiescence. As
a direct result, regulatees entrapped by the vast
CFTC/NFA regulatory net continue to suffer severe
repercussions.
Other regulatees, seeing the
supremacy of the CFTC and NFA's regulatory powers
surrender their legal and constitutional rights, thus,
allowing the CFTC and NFA to establish precedents
grounded not in law but in the crippling fear of the
real threat of the destruction of regulatees'
businesses, livelihoods, and personal reputations.
Justice is grounded in law — where all are equal
under the law. Justice is not grounded in fear where
an unjust power dynamic stemming from usurpation
and arrogation of powers makes one party all powerful
and superior to others under the law.
This Court should immediately intervene to
restore justice to the land and to assert its supremacy
over the American regulatory landscape. By so doing,
the Court fulfills its essential purpose and, thereby,
ensures that the livelihoods, businesses, and
reputations of hundreds of thousands of regulatees
are not at risk of destruction by an usurpatory agencySRO tandem.

LICF.D.C.COMOONOLOrig SLONNIONITOSPPO OLOW61.1.36 .416.5.61.11.111.TIANK111.11.115.1111.11..7.111.1/..11341

2
Ongoing usurpation of undelegated powers,
exploitation of lacunas, and acting with a
sense of supreme powers by the CFTC and
the NFA create a regulatory abyss for
millions of regulatees and encourages even
more usurpation and supreme behavior, if
unchecked by this Court.

I.

A.

CFTC violates a Court's Consent Order
within minutes of the Consent Order's
issuance.

According to Kraft, "the CFTC and its
Commissioners engaged in a deliberate, orchestrated
effort to violate the Court's Consent Order within
minutes of its entry."' The order stated "neither party
shall make any public statement about this case."2
Yet, immediately after the order was issued on August
15, 2019, the CFTC issued three documents on its
website. According to Kraft, the documents were
"self-aggrandizing" and "often false". 3
In an extraordinary action, the judge in the case
has set a hearing for October 2, 2019 and has asked
the CFTC Chairman and two Commissioners to
testify.

1See,

US Commodity Futures Trading Commission v. Kraft
Foods Group, Inc. et al; Case Number: 1:15-CV-02881; U.S.
District Court, Northern District of Illinois (Chicago)
2 Id.
3 Id.
LICEIMGCLUIDONOLOMELONIND min SP P13 OVIIVIAP.2.4.66..11 r1.61011.71.1111.101,1,3611411.2.1.111.111.16.12..

3
B. NFA and CFTC in tandem exploit a
legal lacuna to the severe detriment of
Effex Capital, a party not subject to
regulation by NFA.
Effex Capital is a firm "not subject to regulation
by the NFA."4 Yet, NFA in a disciplinary case with an
NFA member (FXCM) chose to disparage Effex in the
documents detailing the settlement of the FXCM case.
Effex sought relief including removal of its name from
the settlement documents and damages for loss of
profits. The district court ruled against Effex and the
Seventh Circuit affirmed.
Effex claimed that as it was not a party to the
case involving FXCM, it had no standing to contest
the NFA's findings before they were published on the
NFA's website. The district court held that (i) "Effex
could have petitioned the CFTC to exercise its
authority under 7 U.S.C. § 21(h)(2) to review ... sua
Sponte", or (ii) "Effex could have intervened to become
a party"; or (iii) since "CFTC had previously suggested
that a nonparty could ask the Commission to waive its
rules...", Effex should have done so; or (iv), "Effex
could have ... petitioned the CFTC to revise its rules
generally to permit Commission review in such
instances." 5
Keeping aside, the near-certain irreparable
harm done to the businesses of regulatees or in the
case of Effex, even non-regulatees, while pursuing
these "options", these "options" appear to any party
experienced in the CFTC-NFA regulatory universe as
futile if not impossible.
See, Effex Capital, LLC v. National Futures Association, 933
F.3d 882 (2019)
5 Id.

4

WCP.PAC CD.MIONOLOITI.F.111401.11111SITO OLOW0.1.61.113.141.66.67.70.t1.10.116,..1111111.11I.7.19.111.1.1.4

4
At the invitation of the Seventh Circuit, CFTC
filed an amicus brief in support of the NFA where it
contended that "Congress has decided that a "person
aggrieved" by the SRO's action may seek redress
before the Commission.". Effex is not a party to the
case, so it is not explicitly a "person aggrieved". The
Seventh Circuit held that Effex would have to rely on
CFTC — a clearly conflicted party — to determine if
Effex fell within the "zone-of-interests of the statute
and therefore have the right to seek redress before the
CFTC." Given this admission by the Seventh Circuit,
it is curious why they agree with the district court's
finding that remedies before the CFTC would not be
"impossible or futile". Furthermore, in its amicus
brief, CFTC admitted "that although nonparties do
not have a right to CFTC review of an NFA action that
implicates them, the Commission does have the
discretion to permit nonparties to obtain CFTC review
in extraordinary circumstances pursuant to 17 C.F.R.
§ 171.14. The CFTC has not indicated it will use this
discretion in this case.
More bewildering and indeed frightening to
regulatees, the Seventh Circuit concludes that:
There "may" be "administrative remedies
... open to [Effex]".
"We do not believe it appropriate for us to
delineate in any definitive way the
administrative paths that may be open to
Effex."
So, who is to "delineate" those "administrative
paths"/"remedies"? The regulators, themselves?
These questions remind one of the maxim
LICF.IMC.CO.MOONOIAMS1.1.10.1,11TO SITD.OLOW 1,5125 64.R r. 66.61.10.11.1111.11.1.11.1.3111.1111.7.1P.111.10.1.1

5
"Quis custodiest Ipsos custodes?"6
("Who will guard the guards themselves?")

Clearly, there is a lacuna being exploited by the
powerful regulators to the great detriment of not just
their regulatees but even non-regulatees.
II. Excessive judicial deference and
acquiescence by courts encourage and
facilitate the ongoing supreme behavior of
the CFTC and the NFA.
Why are the CFTC and NFA engaged in an
ongoing usurpation of undelegated powers,
exploitation of lacunas, and acting with a sense of
supreme powers? Perhaps, because there is an
exceedingly low rate of certiorari granted to parties
opposing the CFTC by this Court — effectively a rate
of zero percent.?
The CFTC was established in 1974. In the
ensuing 45 years, there have been 41 cases in which
petitions for a writ of certiorari have been filed at this
Court. These 41 cases include Fejpkwlf s case, the
only case of the 41 that is still pending. Only three of
these 41 had the CFTC as the petitioner. In all three,
the CFTC was granted a writ of certiorari — a 100%
success ratio.8 There were 38 cases in which the
Juvenal in Satires (Satire VI, lines 347-348)
All statistics in this section are from research conducted using
the ThomsonReuters Westlaw database on September 20, 2019
during approximately 10:30 AM through 2:30 PM.
8 See Commodity Futures Trading Comm'n v. Weintraub, 469
U.S. 929, 105 S. Ct. 321, (1984); Commodity Futures Trading
Comm'n v. Schor, 473 U.S. 922, 105 S. Ct. 3551 (1985); and
6

7

LICEATIC.CONDONOLOF0.02.1.1711.111,LOW1,61.35.61.55.611.67.0.70.71.N.1.1.9.15.1111.110,7.10.1111.111124

6
CFTC was respondent; one case — Fejokwi.fs case is
under consideration9; one caselo was dismissed
pursuant to Court Rule 5311; and in the remaining 36
cases the CFTC prevailed in 35 for a 97% success rate.
In the one case where the CFTC did not prevail12, the
CFTC later prevailed in a related case with the same
petitioner.13
While the Court in its role of court of "review"
and not court of "first view" historically grants a small
number of petitions for a writ of certiorari, it does
appear that granting only one of an already
incredibly small number of petitions involving the
CFTC as respondent to reach the Court is exceptional.
Admittedly, one cannot speak to the merits of
these petitions and their "certworthiness", two facts
remain quite striking:
1. An exceedingly small number of petitions
are filed at the Court despite significant
activity within the confines of the
regulators' adjudicatory venues. Of those
cases, only 1662 cases seek redress outside

Commodity Futures Trading Comm'n v. Schor, 474 U.S. 1018,
106 S. Ct. 566 (1985).
9 See, Supreme Court docket 19-132.
10 Chicago Commodities Inc. v. Commodities Futures Trading
Comm'n, 483 U.S. 1041 (1987), 108 S. Ct. 362
11 Rule 53 of "Rules of the Supreme Court of the United States"
effective June 30, 1980. Rule 53 (1980) is equivalent to Rule 46
(2019) i.e. Rule 46 of "Rules of the Supreme Court of the United
States" effective July 1, 2019.
12
Dunn v. Commodity Futures Trading Comm'n, 517 U.S.
1219, 116 S. Ct. 1846, (1996)
13 Dunn v. Commodity Futures Trading Comm'n, 528 U.S. 825,
120 S. Ct. 73, (1999)
LICF.114C.COADONOLOPO..51.01414.11ID.FPFD OLOM11$1.116.61.66 68.67.111141171.110.116.111.141LIIElli.7.19.111.111.1.1

7
of the regulators' venues at district and
appeal courts. Yet only 41 cases over a 45year timespan have reached this Court.
2. The CFTC has a surprising 100% success
rate in cases where it is petitioner, while in
cases where it is respondent it is successful
97% of the time.

This power dynamic results in a dual chilling
effect on the regulatory regime.
A realization by regulatees that the CFTC
and NFA are treated as superior under the
law.
A realization by the CFTC and NFA that
they can persist, with emboldenment in
their assertion of their unjust supreme
regulatory powers.
No party is superior under the law or should even
be perceived as superior under the law. No party
should be allowed to function as if its powers are
supreme and can never be checked. This is not the
intent of the law. This cannot be the law.
This Court should immediately end this power
dynamic and make regulators and regulatees equal
under the law. The Court will achieve this by actively
reviewing matters involving this regulatory domain
with a non-deferential, non-acquiescing eye. This is
particularly so, in cases like this case where:

LICIUMC.CPINDONOLOFT SLOMAID.MITO SPP.LOWARS.M.1“.5•37.M.A.71.40.11N 01.9.111.11.11.7.10.11.1%.22A

8
The matter involves an issue this Court has
clearly spoken on for over thirty years.
Specifically, this Court held in Taggart, that
"willfulness" requires "no fair ground of
doubt" and in both Safeco and McLaughlin,
that "willfulness" requires measures of badfaith or recklessness.
Fejpkwi as an individual petitioner is
highly disadvantaged when compared to a
federal agency with the full resources of the
United States of America. Fejpkwi is a
clear example of a party in dire need of
achieving equality under the law through
urgent judicial intervention.
Fejpkwvi is also highly disadvantaged by
virtue of being a pro se petitioner.
III. This case is an ideal vehicle as it is a rare
case to reach the Court in an area where
percolation simply cannot occur due to
excessive judicial deference and
acquiescence.
The CFTC and the NFA act almost lawlessly, as
supreme powers to themselves. This fact is evidenced
amongst other examples by the recent Kraft and Effex
cases. Stemming directly from the CFTC and NFA's
success in assuming supreme powers unto themselves,
most regulated parties surrender early allowing the
CFTC to set unjust, illegal precedents.
Even in cases like that of Kraft where Kraft
surrendered by agreeing to pay a hefty fine, the CFTC
LIC1.1.13.14130NOLOFD.SLD10,19

SPPO.OLOWO.P614..14.1.11.67000.71.110.141.1.11.16.116.116.1.19.1.111.11.4

9
still gratuitously violated the consent order by
releasing "false" statements.
Similarly, even in Fejpkwp's case where Fejpkwvi
surrendered by filing a withdrawal from membership,
the NFA insisted they had to engage in a multi-month
investigation just to allow Fejokwp, a solo operator to
withdraw from membership. Even after the multimonth investigation found no evidence of fraud and as
the NFA freely admitted "This is not a sales
practice case, a fraud case." the NFA persisted.14
The NFA resolute in demonstrating its supreme
powers, permanently banned Fejpkwy for not
providing bank statements that were not required by
the plain letter meaning of the law to prove Fejpkwvi's
qualification for the exemption.
These bank statements had always been in the
NFA's possession from the first full-day of the
investigation. When this fact was brought to the
NFA's attention, they incredulously claimed the bank
statement was an "unauthenticated email". Yet,
when Fejipkwi sought on five different occasions to
provide the bank statements to the NFA in any form
of their choosing, the NFA refused to accept them.15
Additionally, the CFTC blatantly lied to the Third
Circuit that Fejokwvi refused to provide the bank
statement "even now". 16 In response to this falsehood
by the CFTC, Fejokwp successfully moved to include
the bank statements in the record.17 The NFA's multimonth investigation has now turned into a six-year
battle where the NFA and CFTC are determined to
enforce their professional death penalty on Fejokwp.
See, page 10 of Fejpkwn's petition.
See, page 10-11 of Fejpkwn's petition.
16 See, page 46 of Fejpkwn's petition.
17 id.
14

16

LICr.MIC CP MODNOLOFT SLO..0 MITI, SPPD OLOWILISIXWMOILSTALII13130.11.11.11.1•116.111.7.1141..16.12.1

10
So even, when regulatees frightened at losing
their businesses, their livelihoods, and their personal
reputations surrender to the CFTC and NFA, it is still
never enough.
The NFA and CFTC are not satisfied with
ordinary victory, they must obtain gratuitous and
total victory over their opponents and in the case of
weak regulatees, like Fejokwp — the total destruction
of their livelihoods — all for two joint aims.
Firstly, the NFA/CFTC through this ongoing
abuse of their powers and usurpation of powers
creates a regulatory environment of completely cowed
regulatees — regulatees no longer equal under the law
to the NFA/CFTC, but significantly inferior under the
law to the NFA/CFTC. Secondly, the NFA and CFTC
create unjust/illegal precedents grounded not in law
but anchored in the fear of cowed regulatees.
Only this Court can bring this grave injustice —
this regulatory twilight zone to an end. The Court
should do so posthaste.
This case is an ideal vehicle for the Court to
assert its supremacy, and to uphold equality of all
under the law as very few cases reach the Court for
adjudication. Very few cases in this regulatory arena,
reach this Court for three reasons. Firstly, regulatees,
having been cowed by the reality that the CFTC and
NFA are effectively supreme, fully surrender and do
not pursue their cases, fearing certain defeat.
Secondly, because of previous illegal and unjust
precedents established by prior surrender of other
regulatees, legal avenues for redress are effectively
foreclosed. Thirdly, lacking financial resources and/or
emotional fortitude to continue the battle, regulatees
surrender to the all-powerful CFTC/NFA.
ucEofc.comoureourfiusLoleiromrro.speD

1.36.114.0ASKAO.7.71.6...01.11,11.111.11

11

FejpkwVs case is a rare example of a case of a
regulatee persisting in the fight for truth and justice
— fighting to have the unjust professional death
penalty reversed, so that his livelihood, business,
career, and personal reputation may be restored. This
case is an ideal vehicle not just because it is a rare
example of a determined David seeking victory over a
Goliath, but it is the rare example of a case that has
the additional characteristic of a mature circuit split.
This case presents a major circuit split on a critical
issue that will reoccur in this specific regulatory
domain where judicial adjudication is rare due to
cowed regulatees.
Justice Ginsburg, stated a fortnight ago that it is
not the duty of the Court "to right wrong judgments"
but "to keep the law in the United States more or less
uniform".18 This Court should uphold this duty by
resolving the circuit split to conform to its precedents
over thirty years in Taggart, Safeco, and McLaughlin,
and, thus, as in Justice Ginsburg's words, "keep the
law in the United States more or less uniform". 19
While the Court may be tempted to allow
percolation to occur, this is neither necessary nor just
because percolation is simply not occurring. The
issue of "willfulness" is likely to reoccur, but it
is not likely to legally percolate for the reasons
presented earlier. Any delay/inaction by the Court
will result in severe adverse repercussions for
thousands of regulatees — and this is particularly so
for weak regulatees like Fejpkwp. Justice Ginsburg
See, Kalvis Golde, Ginsburg addresses first-year class at
Georgetown Law, SCOTUSblog (Sep. 13, 2019, 9:31 AM),
https://www.scotusblog.com/2019/09/ginsburg-addresses-firstyear-class-at-georgetown-law/
19 Id.

18

LICEITIC.CDMOONOLOFT SLOAINIONEMISPI, OLOWD.M1.35 443.6.7.11•30.71.1101R.111.0.111.11611B.1.111.18.16.21.4

12
as recently as two weeks ago put forth that important
questions percolate and return to the Court. Justice
Ginsburg further stressed that "when the court denies
review, it [says] nothing about the merits" of a case,
but rather indicates a desire for "further percolation"
of the issue presented.2°
Fejpkwli, respectfully posits that on the basis of
the statistical analysis of petitions before this Court
over the forty-five year history of the CFTC as
presented in section II above, that in this specific
regulatory domain, percolation is not occurring and
indeed is severely straitjacketed from occurring due to
the intense and insidious power dynamic that exists
between regulators and regulatees. Simply, the CFTC
and NFA will continue to assert their unjust/unlawful
precedents taking the Court's silence to mean consent.
Regulatees seeing the Court's silence and the
deference/acquiescence of the lower courts of appeals
will simply surrender. No percolation, therefore,
occurs or can occur.
This case presents a mature circuit split on the
issue of willfulness and good-faith. In addition, it
presents critical issues of due process and delegation
of powers. Furthermore, as the Court has already
made clear in Taggart, Safeco, and McLaughlin, the
essential issue in this case is crystal clear —
"willfulness" cannot logically co-exist with good-faith:
"Willfulness" requires "no fair ground of
doubt"
"Willfulness" requires measures of bad-faith
or recklessness.
20

Id.
LICF.111C.C13 AIDONOLOM.SLO117,10111.11,5PPO.O.M.P61.35.4.16.611.67.0.71./10.6.1.141.114.111.7.1141.1.111.4

13
Therefore, the Court can immediately end this
unjust six-year saga that has had disastrous
consequences for Fejpkwp; simultaneously assert its
supremacy over the CFTC and NFA; end this unjust
regulator-regulatee power dynamic; and restore
equality under the law for all — regulator and
regulates alike — by summarily reversing the Third
Circuit.
CONCLUSION AND PRAYER
This case is fundamentally a case of regulatory
power run amok resulting in disastrous consequences
for Fejpkwu. Recent cases discussed in this brief
reinforce this point. Is there a limit to the ambit of
the supreme power of the CFTC and the NFA? Will
this Court assume its rightful place as the supreme
court in the land? Will this Court guard the CFTC
and NFA and not allow these regulatory guards to
guard themselves?
Fejpkwp, prays that this Court will answer YES
to each of the three questions posed above. Fejpkwii
reiterates his prayers in his petition.
This Court should summarily reverse the
judgment of the Third Circuit.
Respectfully submitted, with gratefulness,
LAWRENCE IKEMEFUNE C. FEJOKWV
Pro se
6905 Bellevue Avenue, 2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
September 24, 2019
Law-Fej@ChazonQTA.com

LICF.INIC.COMODNOLOPOSLONMONMSPIV OLOW0114.3311.10.511...0.10.71.1111.911.1.11611.4.1.1616.3.

